<html>
<title> - BRAC AND BEYOND: AN EXAMINATION OF THE RATIONALE BEHIND FEDERAL SECURITY STANDARDS FOR LEASED SPACE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
    BRAC AND BEYOND: AN EXAMINATION OF THE RATIONALE BEHIND FEDERAL 
                  SECURITY STANDARDS FOR LEASED SPACE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2005

                               __________

                           Serial No. 109-54

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform









                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

23-041                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001











                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2005....................................     1
Statement of:
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................     9
    Williams, Dwight, Chief Security Officer, Department of 
      Homeland Security; F. Joseph Moravec, Commissioner, Public 
      Buildings Service, General Services Administration; Get 
      Moy, Director, Installation Requirements and Management, 
      Office of the Deputy Undersecretary of Defense for 
      Installations and Environment, Department of Defense; and 
      John Jester, Director, Pentagon Force Protection Agency, 
      Department of Defense......................................    20
        Moravec, F. Joseph.......................................    32
        Moy, Get.................................................    40
        Williams, Dwight.........................................    20
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia: prepared statement of...................     4
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio, briefing notes..........................    50
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    13
    Moravec, F. Joseph, Commissioner, Public Buildings Service, 
      General Services Administration: prepared statement of.....    34
    Moy, Get, Director, Installation Requirements and Management, 
      Office of the Deputy Undersecretary of Defense for 
      Installations and Environment, Department of Defense, 
      prepared statement of......................................    42
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    79
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7
    Williams, Dwight, Chief Security Officer, Department of 
      Homeland Security, prepared statement of...................    23




















    BRAC AND BEYOND: AN EXAMINATION OF THE RATIONALE BEHIND FEDERAL 
                  SECURITY STANDARDS FOR LEASED SPACE

                              ----------                              


                        WEDNESDAY, JULY 27, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Davis, Gutknecht, LaTourette, 
Brown-Waite, Porter, Foxx, Waxman, Maloney, Kucinich, Watson, 
Higgins, and Norton.
    Also present: Representatives Moran of Virginia and Jones 
of Ohio.
    Staff present: David Marin, deputy staff director/
communications director; Keith Ausbrook, chief counsel; Rob 
White, press secretary; Drew Crockett, deputy director of 
communications; Victoria Procter, senior professional staff 
member; Teresa Austin, chief clerk; Leneal Scott, computer 
systems manager; Karen Lightfoot, minority senior policy 
advisor and communications director; Mark Stephenson, minority 
professional staff member; Earley Green, minority chief clerk; 
and Cecelia Morton, minority office manager.
    Chairman Tom Davis. The committee will come to order. I am 
going welcome everybody to today's hearing on security 
standards for Federal-leased space.
    The Federal Government owns or leases approximately 3.4 
billion square feet of space. As the Federal Government's 
primary property management, GSA is responsible for a large 
percentage of that space, while other agencies, such as DOD 
have independent land holding and leasing authorities. These 
agencies are responsible for ensuring the safety and security 
of the sites they own and lease. In light of foreign and 
domestic terrorist attacks against U.S. targets over the past 
10 years, Federal agencies have been at a heightened state of 
alert. In fact, the threat of terrorist attacks against Federal 
facilities was one of several factors that prompted GAO to 
include Federal property on its January 2003 high risk list. We 
need to take every possible measure to secure and protect 
Federal facilities, employees and visitors.
    Now, immediately following the Oklahoma City bombing in 
1995, the President directed the Department of Justice to 
assess the vulnerabilities of Federal facilities to terrorist 
attacks and recommend minimum security standards for federally 
occupied space. The result was the categorization of Federal 
buildings into five levels based on several factors such as 
building size, agency mission and function, tenant population, 
and volume of public access. The Department of Justice also 
published its vulnerability assessment of Federal facilities 
report in June 1995, which proposed minimum securities for 
Federal buildings, the first time government-wide security 
standards were established.
    In 1995, the Interagency Security Committee [ISC], was 
established by Executive order and is currently chaired by the 
Department of Homeland Security. The ISC was tasked with 
developing and evaluating security standards for Federal 
facilities and overseeing the implementation of appropriate 
security measures for those sites. However, these standards 
weren't readily applicable to leased space. So the ISC 
established a committee to develop its security standards for 
leased space which was approved by OMB in September 2004.
    Meanwhile, the Department of Defense created the 
antiterrorism force protection standards. These standards still 
apply to new construction and new leased space beginning 
October of this year, and beginning in October 2009 they will 
apply to the rollover of existing leased space. We are here 
today because it is unclear to many of us why DOD needs its own 
security standards separate from those developed by the ISC. I 
am concerned that DOD not only developed leased space criteria 
that are inconsistent with the ISC standards, but does not 
apply them appropriately. For example, DOD used its standards 
to justify seemingly arbitrary recommendations to base 
realignment and closure commission, including a recommendation 
to vacate a significant percentage of its leased space in the 
National Capital region. I don't think any of that was in my 
district, for the record. I understand that other members of 
the committee have similar concerns in their own districts 
arising from DOD's inconsistent applications of its standards. 
DOD insists that leased space security standards and the BRAC 
recommendations are unrelated issues. Frankly I disagree and I 
anticipate we are going to hear from several members today who 
don't share DOD's stovepipe outlook.
    Technological advances have led to improvements in the 
procedures machines and devices that can be employed to protect 
employees and visitors in public buildings, to restrict access, 
and to detect intruders. Part of the challenge of securing 
space comes from the desire to balance critical security needs 
with cost efficiency. While certain security technologies such 
as x-ray machines, magnetometers, access cards and biometrics 
may help ensure protection of people and buildings, they may 
also prove inconvenient or intrusive. Furthermore, none of 
these measures can be implemented in a leased site without the 
owner's agreement.
    Given the government's reliance on leased space and the 
unique challenges of securing privately owned sites, the 
committee is interested in learning more about the development 
and implementation of security standards for leased space. 
Today we will evaluate the rationale behind the different 
leased space standards and how they are implemented by 
agencies. We are going to hear from Congressman Jim Moran and 
three agencies that have been actively involved in the 
development and implementation of security standards for leased 
spaces, DHS, GSA and DOD.
    [The prepared statement of Chairman Tom Davis follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. Today's hearing will 
examine the differing security standards used by the Department 
of Defense and by the General Service Administration for leased 
space. Much of the space needed for Federal office buildings, 
particularly in the National Capital region, is in buildings 
leased from the private sector. The Defense Department requires 
leased space to meet the security requirements used for 
federally owned buildings. This includes the standards for 
setbacks and blast protection required when the government is 
building new buildings.
    GSA's government-wide security standards for leased space 
do not include the same setback and blast protection 
requirements. We all want Federal employees adequately 
protected in their place of work. While higher security 
standards for bases and other military installations are 
probably appropriate, creating separate minimum security 
standards for different agencies including the Defense 
Department civilian workforce could create unnecessary 
confusion. Today's hearing will provide important information 
on our efforts to assess the most appropriate security 
standards for our Federal space and I look forward to hearing 
from our witnesses today. Thank you.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Well, thank you very much. Members will 
have 7 days to submit opening statements for the record. We now 
recognize our first panel. It is Congressman Jim Moran from the 
8th district of Virginia. Jim, welcome. Thank you very much for 
being with us. I know this is a hearing you have given a lot of 
thought to and a lot of study, and this impacts, I know, a lot 
of your constituents and mine in terms of convenience, cost. 
And you sit on the Appropriations Subcommittee on DOD, so you 
are going to have some say about this in the future, but we are 
very anxious to hear your thoughts today and thanks for being 
with us.

STATEMENT OF HON. JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you very much, Chairman Davis and Ranking 
Member Waxman. I appreciate the opportunity to appear today and 
before this oversight hearing to examine DOD's building 
security standards for leased space and the rationale behind 
using those standards in the BRAC process. I would like to 
address the problems I foresee with the Department of Defense's 
approach in both the BRAC process and the larger building 
security standards for leased space. No. 1, the adoption of 
these standards were done without any public process. Second, 
there is a strong bias against leased space without supporting 
data and documentation.
    And third, there is an arbitrary nature to the standards. 
What the message these standards sends to the Nation is 
troubling. And the lack, finally, unlike any other government 
agency of performance-based standards that would take advantage 
of the extraordinary wealth of innovation and technology that 
we have in northern Virginia and in other metropolitan areas, 
but particularly here around the Pentagon, that we have this 
available to us the opportunity to provide incentives for 
producing better building security methods that will make all 
Americans safer by using that innovation and technology, and I 
also say judgment because that is lacking in some of these 
prescriptive base standards that we are faced with.
    The Department of Defense's minimum antiterrorism standards 
for buildings and leased space, they represent a prescriptive-
based approach that deviates from the performance standards 
that most government agencies follow today. The new standards 
overlook the work of the interagency security committee 
security standards, it is called the ISC. They have standards 
for leased space that were approved less than a year ago and 
these DOD standards don't allow alternative means to achieve 
maximum security, at leased office space. They overlook how to 
prevent other forms of terrorist threats such as suicide 
bombings and chem/bio contamination and would have done nothing 
to prevent the attacks of September 11th.
    These building standards are designed to protect against 
one primary threat, a truck bomb, basically a truck bomb that 
would hold approximately 200 pounds of TNT. It is a 
prescription based standard requiring all DOD agencies, 
military command centers, and even some private DOD 
contractors, to abandon their present locations in favor of new 
sites on military bases or in locations without underground 
parking and that are set back at least 82 feet from the street. 
It will be difficult, if not impossible, for military 
facilities in leased space in an urban area, such as Washington 
or its heavily developed suburbs or any other major 
metropolitan area, to meet this demand. It makes no economic 
sense and there are better ways of doing it.
    So what is at stake is more than the region's economic 
well-being? Fighting international terrorism requires a far 
greater reliance on communications between the FBI, our 
intelligence community, the Defense Department and the new 
Department of Homeland Security. These installations are based 
in this region for military enhancement to ensure ready access 
to the Pentagon, the White House and Congress, but also, to a 
growing public and private web of creative software development 
and intelligence that are critical to the 21st century threats 
that this Nation confronts.
    It is an extraordinary assumption to believe that the kind 
of intelligent minds critical to this new mission will want to 
relocate so far from our countries high tech corridors as some 
of these recommendations require them to. Secured communication 
lines and infrastructure will be disrupted and they will take 
years to re-establish at the new locations. Contractors will 
experience fewer opportunities to collaborate and work hand in 
hand with the military and the weapons systems enhanced 
response capabilities and software innovation. Congress and key 
policy advisors throughout the government will be denied the 
direct feedback and contacts that have fostered a highly 
productive relationship between the military and other parts of 
the Federal Government and private industry.
    The National Capital region has more than 8.3 million 
square feet of leased space, 3.9 million square feet of which 
is in Arlington County alone. That will be affected by these 
proposed BRAC recommendations. More than 8 million square feet 
are affected by the BRAC recommendations, and most of that is 
in my congressional district in northern Virginia. The BRAC 
recommendations on leased space approved will reduce total DOD 
leased space within our region by 80 percent, virtually gutting 
entire buildings in our region. An additional 4 million square 
feet of leased office space in northern Virginia that is not 
affected by BRAC but will also be affected though by DOD's 
minimum antiterrorism standards for building security.
    These combined proposals represent a double punch to our 
region that will not only reduce available Federal lease space, 
but will have a devastating impact on our region's government 
workforce and the tens of thousands of contractors and 
businesses that are collocated near these agencies. The 
symbiotic relationship that has been created in this region has 
helped make our military the strongest, most technically 
innovative in the world. The irony is that the Defense 
Department's master plan for its own headquarters affirms that 
the Pentagon cannot meet the prescriptive building standard it 
seeks to impose on its satellite offices and facilities.
    Its setback is not sufficient and a metro public transit 
center, although it was recently moved, is still less than 148 
feet from the building. DOD's proposed changes will also 
adversely affect our military readiness if our highly trained 
personnel do not move with their agencies and leave the Federal 
workforce. Chairman Davis and I did some surveys and we found 
that in some cases, 50 to 75 percent of the workforce has said 
they will not move out of this area. Their wives are employed 
in other jobs here, their children are in the school system and 
they want to stay here.
    In light of the costs and minimum added security offered by 
these standards, it is difficult to understand why the 
Department of Defense would unilaterally impose such standards 
and then expect the Congress and the country to foot the bill 
which is going to come to billions of dollars. At a meeting 
that Chairman Davis and I convened last week with 
representatives from northern Virginia's business community, 
and Ralph Newton, who is the principal deputy of Washington 
headquarters, serves as the Director of Defense Facilities, we 
raised several concerns with DOD's minimum antiterrorism 
building security standards.
    And it was clear from this briefing that many questions 
remain unanswered concerning the Department's rationale behind 
its stand and why such limited criteria were used over other 
methods of achieving maximum building security. So I hope that 
today's officials will be able to shed some much needed light 
on the development of these standards and why they were applied 
to the BRAC process, which never included building security 
standards among its criteria.
    The DOD building security standard was unfairly applied in 
the BRAC process in a manner that disadvantaged leased space. 
It seemed to be a back-door attempt by the Secretary of Defense 
to eliminate leased space in the National Capital region, a 
move which is not going to produce cost savings and could 
result in the loss of thousands of our most talented personnel 
if they do not move when their agencies relocate outside the 
metro corridor.
    So Mr. Chairman, as you and your colleagues on this 
committee examine possible legislative measures, I would like 
to call to your attention that report language that you alluded 
to that I put in the 2006 Defense appropriations bill that will 
require DOD to issue a report by the end of the year on the 
cost for implementing the antiterrorism standards and which 
compare DOD and GSA antiterrorism standards for buildings. As a 
member of that subcommittee on defense, we required the 
Secretary of Defense to provide a report to ``explain 
differences in criteria used by the two agencies and propose 
alternatives for reconciling any conflicts between the 
standards to ensure that managers have one set of rules for 
meeting Federal Government antiterrorism criteria.''
    I encourage this committee to also consider legislation 
that will further underscore this congressional intent and to 
examine alternative security approaches and technologies that 
are available to help achieve enhanced security consistently 
across government agencies in leased buildings.
    So in conclusion, I believe the Secretary of Defense's 
process set out to eliminate leased space in northern Virginia. 
It failed to collect and compare actual data and as a result, 
is neither sufficiently accurate--it is not accurate in fact, 
nor sufficient to meet the requirements of the law. And 
similarly, Defense Department's minimum antiterrorism standards 
reflect narrow approaches to building security and do not 
consider the kind of technology and performance-based criteria 
that is readily available and could bring many more agencies 
into compliance for a fraction of the cost that DOD will incur 
if agencies are moved out of leased space in the National 
Capital region.
    Again, Mr. Chairman, I applaud your committee for holding 
today's hearings. I am happy to respond to any questions. I 
know that you know a great deal about this, that the two of us 
have worked to understand the process, understand the 
motivation and to represent our constituencies, many of whom 
are very adversely affected by this. So thanks again, Mr. 
Chairman.
    [The prepared statement of Hon. James P. Moran follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thanks for being here and sharing your 
thoughts. Let me ask a question. As I understand the DOD 
guidelines, underground parking is a taboo; is that correct? Is 
that an absolute, as far as you're concerned?
    Mr. Moran. Well, it has to be very limited as I understand 
it, so that--of course, you can't have public access for 
underground parking. And while some employees, I believe, would 
be able to go through a screened process to use that 
underground parking, it substantially reduces the amount of 
parking that would be available in a metropolitan area.
    Chairman Tom Davis. I mean, we have underground parking 
here in the Rayburn Building. We have it in Cannon. We have it 
in Longworth. And you can screen it perfectly well. But I am 
not sure that DOD allows this kind of flexibility. It just 
seems very prescriptive in its nature instead of taking a look 
at the overall safeguarding of the building.
    Mr. Moran. Thank you, Mr. Chairman, for making that, 
pointing that fact out with regard to our own security here at 
the Capitol which is, you would think, would be ground zero in 
terms of a possible threat from terrorists.
    Chairman Tom Davis. Well, let me ask you this: You look at 
Rayburn, which trucks can drive right by currently. Under DOD, 
if we were DOD employees, they would be getting rid of Rayburn 
at the end of this lease, and we would have to find other 
space, just to draw the analogy in this case.
    Mr. Moran. We have employed judgment. You can't move the 
Capitol. You can't move the House offices.
    Chairman Tom Davis. How about the Supreme Court? You can 
drive by the Supreme Court. But the brass gets a different 
standard.
    Mr. Moran. These are very important observations, Mr. 
Chairman, and I don't blame the professionals in the Department 
of Defense who are carrying this out. They are doing what they 
are asked to do and they are trying to provide for as much 
judgment and flexibility as they can. But their orders, I 
think, are too limiting.
    Chairman Tom Davis. Well, let me just ask another thing. I 
mean, you have limited amounts of dollars. If you had unlimited 
amounts of dollars, I guess you could say we can go ahead and 
do this. But when you're spending money on this, and if you 
take a look at the terrorist attacks that have happened in 
other places and so on, and like it, I mean, you have to put 
everything into an appropriate context. These are dollars that 
you can't spend on getting, you know, protective gear for our 
troops in Iraq, that you can't spend on getting the best 
scientific equipment in some other areas, that you can't use 
for military pay. I mean, this is, to some extent, a zero sum 
gain. It's not like we have a lot of additional dollars.
    So you have to be prudent. And what concerns me about this 
is by being so prescriptive they are basically saying just in 
northern Virginia and in other parts of the country, 4 million 
square feet has to be re-leased, obviously at higher rents. And 
over the long term this is billions and billions of dollars.
    Mr. Moran. It is going to be extraordinarily expensive to 
build these new buildings, to set aside the amount of land that 
will be required for the setbacks. And they will have no use 
subsequently, because no private owner is ever going to want to 
use these buildings because of the construction premium. I 
don't know how long we are going to be fighting this war on 
terrorism, but we do need to look to the future and be cost 
conscious. And you made a very good point. Specifically, the 
money for this construction is going to have to come from the 
Veterans Affairs Subcommittee, the Military Quality of Life 
Appropriations Subcommittee.
    So, in effect, it is going to be coming from compensation 
for our military enlistees and veterans. And I have to say it 
is going to be difficult for the Congress to justify spending 
billions on new buildings when we have a less expensive 
alternative. And again, what we are dealing with is only one 
form of terrorism, the possibility of a truck bomb. Now the 
General Services Administration has to build buildings in 
metropolitan areas. They have just built a building for the 
American delegation to the United Nations in New York City. New 
York City, you can't have an 82-foot, let alone 148-foot 
setback. But they built a building that, where the perimeter 
around it was used as a lobby, but it--they understood that a 
blast might go through that. But the interior was hardened with 
few windows, the sensitive activities were in the core of the 
building. The traffic management was organized so that trucks 
couldn't stop in front. They exercised judgment and technology 
and they come up with approaches that are cost efficient, but 
are pragmatic and nevertheless achieve the desired objective of 
security.
    And that is what we are asking. We think that a combination 
of GSA's approach and DOD's concern, they are working together, 
the professionals themselves, if you put aside some of the 
people that may be--well, let me just say the professionals. If 
the professionals were to sit down together, the folks from 
DOD, who are terrific and the people from GSA I think they 
would come up with standards that we could not argue with. But 
right now, I think we have arbitrary prescriptive standards 
that don't accomplish a whole lot for DOD and they certainly 
cause very adverse economic consequences for the metropolitan 
Washington region.
    Chairman Tom Davis. Well, thank you. I mean, what you end 
up with are buildings that are going to have the thickness and 
maybe the longevity of the pyramids, but it's also going to 
have about the same occupancy rate over the long term. I mean, 
you are not going to have anybody there.
    Mr. Moran. I wish I would have thought of that. I would 
have put it in my statement if it had occurred to me.
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. I want to thank Mr. Moran for his presentation. 
I think you have given us many issues to consider quite 
carefully. Thank you.
    Chairman Tom Davis. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Moran, I want 
to thank you too. And I want to reference a hearing that 
happened over in the Senate when your Senator and Mr. Davis' 
Senator, Senator Warner, testified on this issue. And my 
understanding from reading the newspaper is that he was one of 
the authors of the BRAC legislation. And he opined that giving 
a bias, DOD giving a bias to get out of leased space violated 
at least the spirit of the law if not the intent. Do you agree 
with that assessment?
    Mr. Moran. I strongly agree with that, Mr. LaTourette. I 
appreciate the fact of your bringing it up. Senator Warner said 
before the BRAC Commission that as an author of the 
legislation, he believed that the implementation as it is, as 
it affects leased space in northern Virginia, is inconsistent 
with the underlying BRAC law, the authority that they had. 
Basically they were carrying out a directive they were given, 
but it was not a directive consistent with BRAC's objectives 
which are to save money and enhance military operations to 
effectiveness.
    Mr. LaTourette. I happen to agree with you. And when we 
receive our second panel, we have actually discovered a 
document from February of this year where the answer is given 
by the BRAC red team that yes, there was a specific DOD 
directive to get out of leased space. And I will have some 
questions about that. The other thing that I just want to 
comment on, I don't want to hold you. I agree completely with 
you and Chairman Davis.
    I had a Federal employee come up to me. We have a DFAS 
facility in the Cleveland area near Congressman Kucinich's 
district and mine. And it is scheduled for closure; 1,100 jobs 
scheduled to go. But the Federal worker that came up to me 
works for the Social Security Department and the question is, 
why, if we have these minimum terrorism standards, is it OK for 
the accountants that are issuing paychecks and payroll checks 
for members of the Defense, a very important function, why do 
we have to have force protection for them, but for the Social 
Security, Coast Guard, Department of Labor and Veterans 
Affairs, they can be in this ``dangerous building?'' I find 
that to be hypocritical and I assume you would as well.
    Mr. Moran. I do. I think that is an important observation, 
the inconsistencies here, and the assumption that terrorists 
are going after bureaucrats who are doing their lives--we don't 
refer to them as bureaucrats, but I think they would see them 
as bureaucrats. I don't see that there is a whole lot 
accomplished by going after some of these leased office 
buildings. In fact, I can't imagine many terrorists knew where 
they were located until the BRAC Commission reported on their 
addresses. But it is much to do about very minimum security 
enhancement as far as I can say. That's an important 
observation, the inconsistency across the government.
    Mr. LaTourette. I appreciate that. We just have one more 
piece of leverage in Cleveland, Congressman Kucinich and Tubbs 
Jones and I, and that is that apparently President Bush's 
paycheck is cut in Cleveland, and so we are thinking of 
stopping payment after September 8. We'll see how that works. I 
thank you Mr. Chairman.
    Chairman Tom Davis. Mr. Kucinich.
    Mr. Kucinich. I want to thank Mr. Moran and associate 
myself with Congressman LaTourette's remarks. One of the things 
I think we will need to get into in the next panel is this 
question of the relationship between BRAC's objective of saving 
money, and since BRAC has determined to spread out so many 
functions into relatively new areas, it will be interesting to 
see if they took into account the increased costs of securing 
those areas as compared to what the costs were in the first 
locations.
    So I want to thank my colleague for expressing his concern 
about the security issues involved. But security issues 
inevitably have a price tag, and so we have to see where the 
price tag comes into play on a security factor with respect to 
BRAC. And of course, that is what this hearing is about. So 
thank you, Mr. Moran.
    Chairman Tom Davis. Any questions, Ms. Brown-Waite?
    Ms. Brown-Waite. No.
    Chairman Tom Davis. Mr. Porter, any questions? Ms. Norton. 
Jim, thank you very much. You've laid a good predicate here for 
the hearing and we'll take about a 1-minute recess as we move 
our next panel forward.
    OK. Our second panel, we have Mr. Dwight Williams, the 
Chief Security Officer of the Department of Homeland Security; 
Mr. Joe Moravec, who is the Commissioner of Public Buildings 
Service at the General Services Administration. I just want to 
thank Mr. Moravec for appearing today. I am going to--I'd say 
congratulate you on your retirement. Let me congratulate you on 
a job well done. I just wish you well as you leave GSA. You 
have been a very bright star over there. We are going to miss 
you. Dr. Get Moy, the Director, Installations Resource 
Management, Office of the Deputy Undersecretary of Defense for 
Installations and Environment at the Department of Defense. And 
John Jester, the Chief of the Pentagon Force Protection Agency, 
Department of Defense. Mr. Jester testified before the 
subcommittee, which I chaired in 2002, and we want to thank you 
for being here as well. As you know it is our policy to swear 
in witnesses before you testify so if you would just rise and 
raise your right hands with me.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Williams, we will start with you.

    STATEMENTS OF DWIGHT WILLIAMS, CHIEF SECURITY OFFICER, 
      DEPARTMENT OF HOMELAND SECURITY; F. JOSEPH MORAVEC, 
   COMMISSIONER, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
 ADMINISTRATION; GET MOY, DIRECTOR, INSTALLATION REQUIREMENTS 
AND MANAGEMENT, OFFICE OF THE DEPUTY UNDERSECRETARY OF DEFENSE 
 FOR INSTALLATIONS AND ENVIRONMENT, DEPARTMENT OF DEFENSE; AND 
   JOHN JESTER, DIRECTOR, PENTAGON FORCE PROTECTION AGENCY, 
                     DEPARTMENT OF DEFENSE

                  STATEMENT OF DWIGHT WILLIAMS

    Mr. Williams. Mr. Chairman, Ranking Member Waxman and 
members of the committee, thank you for the opportunity to 
address you today and for your ongoing support for the 
Department of Homeland Security. My name is Dwight Williams. I 
am the Chief Security Officer of the Department, and as such, I 
am also the new Chair of the Interagency Security Committee. 
Prior to this, I spent 4 years at Customs and Border Protection 
as the Director of the Security Programs Division, and I was 
director of the Office of Professional Responsibility at the 
Washington, DC, Metropolitan Police Department. I am pleased to 
appear before you today to discuss the ISC security standards 
for leased space. Following the bombing of the Murrah Federal 
Building in Oklahoma City in April 1995, the President 
established the Interagency Security Committee to enhance the 
security of Federal facilities for non-military activities. The 
ISC has 21 primary members, including the Departments of 
Justice, Defense, State, the General Services Administration, 
as well as 14 associate members and officials from other key 
agencies.
    The President also directed DOJ at the time to conduct a 
vulnerability study assessing Federal office buildings. This 
study set forth specific security requirements regarding 
perimeter entry and interior security as well as general 
security planning considerations. In 1997, GSA drafted security 
criteria based on the DOJ study and these criteria were updated 
in 2001. This document, however, primarily applied to new 
buildings and construction. Although the DOD standards were 
intended for use in all federally occupied facilities, they 
were not readily adaptable to most leased facilities. Building 
owners were often reluctant to make the significant alterations 
in order to comply with stringent security standards.
    The situation led to a double standard for owned buildings 
and leased buildings. As a result, the ISC established a lease 
security subcommittee that combined the expertise of security 
specialists, design professionals, engineers, architects and 
fire and safety specialists from member agencies. To maintain 
consistency, the subcommittee started with the 1995 DOJ study 
and the 2001 ISC standards as the basis for compiling standards 
for leased space. The ISC subcommittee also sought input from 
the real estate private sector. Subsequently, the subcommittee 
issued a proposed draft in July 2003. Following an analysis of 
the costs involved, the full committee approved the lease 
standards and they were issued in February 2005. It is 
important to recognize that the security standards for leased 
space establish the recommended minimum security requirements 
for protecting Federal facilities while providing the agency 
the ability to tailor security to their mission as well as 
threats and vulnerabilities. They do not prohibit an agency 
from imposing more stringent security requirements.
    The ISC security standards do not establish a single one-
size-fits-all standard for every leased Federal facility. Our 
goal is to ensure that we have an effective program for 
securing lease space utilizing a risk management approach based 
on three primary factors as recently articulated by the 
Secretary. That is threat, vulnerability and consequences. The 
ISC recognized that resources are limited within the government 
and therefore, the ISC aimed to strike a balance between 
security and feasibility. One purpose is to educate Federal 
agencies regarding what minimum standards are prudent in order 
to make informed security decisions. They are not intended to 
substitute ISC's judgment for the agency's own. These security 
standards represent a living document that will be reviewed 
regularly at ISC meetings and updated as threats evolve and 
additional issues are identified.
    Further, DHS is pursuing ways to implement these standards 
at its own facilities. The Department is working with other 
stakeholders to communicate these standards, and the Federal 
Protective Service is already using the lease standards in 
conducting vulnerability assessments of Federal buildings.
    In closing, I would like to thank the committee, again, for 
the opportunity to appear before you today. The security of 
Federal employees is of paramount importance to the Department 
of Homeland Security, and we will continue to ensure that every 
effort is made to provide them with government facilities that 
are designed and constructed with their security in mind. I 
would now be pleased to answer any questions that you may have.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Moravec.

                 STATEMENT OF F. JOSEPH MORAVEC

    Mr. Moravec. Good morning, Chairman Davis and members of 
the committee. Thank you, Mr. Chairman, for your gracious 
acknowledgment of my service. It has been my high honor to 
serve our President and our country. My formal statement has 
been previously submitted, and I would ask that it be entered 
into the record of these proceedings. If I may, I would like 
now to highlight its salient points. The mission of the Public 
Building Service is to provide a superior workplace for the 
Federal worker and superior value for the American taxpayer. A 
superior workplace obviously means a safe and secure workplace 
including one that is as secure as we can make it against a 
terrorist attack. The Oklahoma City bombing changed forever the 
way in which we design, build and operate Federal buildings in 
the face of such threats to Federal workers and the millions of 
Americans who visit our buildings every day to do business with 
their government.
    While the best defense against a terrorist attack is 
foreknowledge, provided by coordinated criminal intelligence 
sources, we are also committed to taking every feasible 
precaution to defend against and mitigate the effects of 
terrorism at every building under our control. In doing so, we 
attempt to achieve a balance between security countermeasures 
and the other elements that constitute a superior workplace 
supportive of the missions of our customers' agencies. These 
elements would include location, accessibility to other 
agencies and the public, functionality, aesthetics, energy 
efficiencies, sustainability and integration with the life of 
surrounding communities at a cost that represents good value 
for the American taxpayer.
    For example, to avoid creating an impressive climate of 
fear at Federal buildings, we try to design buildings whose 
architecture first welcomes and then challenges visitors. And 
because it is possible to spend lavishly on building security 
without necessarily reducing the threat, we try to tailor 
security counter measures that address a particular building's 
perceived vulnerabilities to craft a package of physical 
upgrades and operational procedures that will actually reduce 
the threat to that particular building and its occupants.
    Because the value of innocent human life is beyond measure, 
whether it is an owned or leased Federal space, GSA led the 
effort, under the auspices of the Interagency Security 
Committee, to develop security criteria for leased Federal 
space based as closely as possible on the 1995 Department of 
Justice vulnerability study and the ISC's security design 
criteria for Federal construction.
    The effort was also, in part, in response to requests from 
the commercial industry to establish a reliable and consistent 
security baseline for landlords competing for Federal leases. 
This is critical to government in that we rely on the private 
sector to house nearly half of the civilian Federal workforce. 
Just as for their own Federal space, the ISC standards for 
leased space which have been circulating in draft form for the 
past 2 years and which were formalized in February of this year 
require respondents to government solicitations for office 
space to meet an escalating hierarchy of security requirements, 
levels one through four, based on square footage, size of 
tenant population, intended use and the security profile of the 
tenant agency.
    While the security of our people was and, of course, is the 
paramount consideration, the ISC subcommittee which drafted the 
leased space standards did not want to produce a prescriptive 
one-size-fits-all document that would be impossible for the 
private sector to respond to. The committee consulted 
extensively with industry to develop standards that could both 
be tailored to an agency's particular needs and that could be 
applied in the real market place in a way that was consistent 
with procurement law.
    Cost was definitely a consideration. It's one thing for 
government to incorporate setbacks and obstructions to 
vehicular access, hardened curved walls and add a progressive 
collapse structural design in buildings that it owns. It's 
another for the private sector to do so in a speculative 
building and still be competitive. The lease standards are 
meant, as Mr. Williams has testified, to be minimums to be 
incorporated into solicitations for offers. Landlords not 
meeting the criteria are considered to be nonresponsive. Any 
customer agency, including the Department of Defense may, upon 
consultation with us, request that higher standards be 
established in response to perceived particular vulnerabilities 
and in build-to-suit competitions, new buildings designed for 
lease, exclusively for the government, must achieve the same 
security design criteria required for Federal construction.
    In preparation for a lease solicitation the GSA realty 
specialists, in consultation with the customer, craft a program 
of requirements. The Department of Homeland Security 
represented by the Federal Protective Service provides threat 
assessment input based on its security evaluation. GSA 
provides, at that time, information about what is available in 
the marketplace and then the appropriate ISC level of security 
is established for the purposes of the solicitation. Although 
the ISC standards are just now being incorporated into lease 
solicitations, it's anticipated that the market will be able to 
respond well and competitively to level one through three 
acquisitions.
    Level four, which requires full security control by 
government and dedicated heating ventilating and air 
conditioning for lobbies, mailrooms and loading docks, will 
present, we think, some challenges in most markets. 
Fortunately, level four requirements represent a very small 
percentage of our anticipated lease procurements in the years 
ahead. This concludes my prepared oral statement. I am, of 
course, prepared to answer whatever questions you may have of 
me.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Moravec follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Dr. Moy, thank you for being with us.

                      STATEMENT OF GET MOY

    Dr. Moy. Mr. Chairman, distinguished members of the 
committee, we appreciate the opportunity to present the 
Department of Defense's antiterrorism force protection 
standards for leased spaces. We have a written statement and 
with your permission, we will submit it for the record. I'll 
just spend the next few minutes to highlight the issues that 
we're going to discuss today. I also would like to recognize 
three members of the DOD team here that participated in those 
standards and worked with the rest of the Federal Government.
    John Jester who is the Director for Pentagon Force 
Protection, Ralph Newman, who is the Deputy Director for 
Washington Headquarters Services, and Joe Hartman who is the 
structural and security engineering team leader at the U.S. 
Army Corps of Engineers. Force protection is an extremely 
important subject matter for all of us at all times. Back in 
the--with the terrorist threat and bombing at Khobar Towers in 
1996 after that the Department renewed its emphasis on 
developing criteria on how it could protect its mission and its 
personnel against terror threats.
    As a result, it issued a series of documents, first in 
1999, a document focusing on construction. In 2002, it issued 
what we now call the Unified Facilities Criteria. Included in 
that issue was the standards for leased spaces, and the current 
issue was last put out in 2003. In comparison, the Interagency 
Security Committee guidelines for federally owned facilities, 
were put out in 2001 and for leased facilities was recently 
signed out in February of this year, 2005. In terms of the 
discussion of the ISC guidelines versus the Unified Facilities 
Criteria, I would submit to the committee to go back to the 
roots of these documents. The ISC was established by Executive 
order in 1995 with a basic focus on buildings and facilities 
for Federal employees for non-military activities. And it 
covers a great range of security issues in the guidelines.
    The Unified Facilities Criteria, however, was specifically 
developed in response to protect personnel as a mission against 
terrorist threats. And it is very specific in terms of 
application for lease spaces in the case of where we have more 
than 11 people, 11 DOD employees in a building or any part of a 
building, and where the DOD components of that building is 25 
percent or more of the population, so it is very specific in 
terms of its application.
    The specific focus in terms of contrast between ISC 
guidelines and Unified Facilities Criteria has to do with the 
set-off distances and the blast mitigation. The Department 
feels that vehicle-borne threats are very much a security 
threat to the Department that must be considered in any 
security plan. And that is why there is such a heavy emphasis 
on design and construction and setback distances. There is 
allowances in the Unified Facilities Criteria to deal with 
alternative ways of meeting that setback distance and the blast 
mitigation using the technologies.
    Implementation of the UFC requirements is fairly 
straightforward for new construction. It is difficult for 
existing construction. While there are many challenges we have, 
the Department has had a number of developers approach us in 
terms of offering different ways in which they can provide the 
blast mitigation, the setback distances and provide solutions 
for the Department, meeting the Department's requirements. I 
appreciate the opportunity in addressing the subject. We look 
at the ISC standards and guidelines as addressing those 
concerns for Federal employees that are doing non-military 
activities. The UFC specifically focused on protecting the 
mission and personnel against terrorist threats, the 
professionals from both communities continue to work with each 
other, talk with each other. We extend our efforts and our 
partnership in working with the ISC professionals as well as 
the private industry in enhancing, making better risk based 
assessments, analyses, mission assessments, capability 
enhancement as well as protecting our people. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Moy follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Jester, you are here for questions, 
is that to answer questions? Do you want to make any statement?
    Mr. Jester. No, sir. It was a joint statement.
    Chairman Tom Davis. OK. Thank you very much. Mr. 
LaTourette, you served on the Transportation and Infrastructure 
Committee. You actually served as subcommittee chairman on 
building consulting. Why don't we start the questioning with 
you.
    Mr. LaTourette. I thank you very much, Mr. Chairman, for 
the courtesy, and Mr. Moravec, I'd add to the congratulations 
the chairman lauded on you, and I want you to know I'm sorry 
for taking your Federal building fund money in the 
transportation bill. A couple of observations. I mentioned when 
Congressman Moran was here that we are having a little bit of a 
problem with understanding what it is the Department of Defense 
did relative to the city of Cleveland. It is clear to me, at 
least, and I think to my colleagues from Cleveland, that from 
internal BRAC documents I don't think Cleveland ever stood a 
chance because it was penalized for not meeting these minimum 
antiterror standards 4 years before they need to be 
implemented.
    And it is also clear to me that I don't think Cleveland 
received a fair break relative to how its lease was evaluated. 
I want to talk to you a little bit about that Mr. Moravec, if I 
could start with you. The staff at GSA has informed us that GSA 
operating cost, not the shell rate that you charge, and it 
includes maintenance utilities and janitorial services, is that 
correct?
    Mr. Moravec. That is correct.
    Mr. LaTourette. Do GSA operating costs, not the extra cost 
but the actual operating costs ever include things like joint 
use of space, parking, or antennae? Are those part of your 
operating costs that you pass along to your tenants?
    Mr. Moravec. I am not sure whether they are included as 
part of our operating cost, but they're certainly included as 
part of the rent.
    Mr. LaTourette. OK. Do operating costs ever include 
overtime or communications?
    Mr. Moravec. Communications.
    Mr. LaTourette. But not overtime?
    Mr. Moravec. I would have to research that before giving 
you an answer.
    Mr. LaTourette. OK. The difficulty that we have in this 
process is that my understanding of the cost of the space is 
about 20 percent of the BRAC calculation that was used. And a 
new lease was signed in Cleveland, and you can throw in all of 
the extra cost. It's $19 a square foot and change. It's 
competing against Indianapolis. And in 1996, somebody, we could 
speculate who the powerful people are in Indiana secured a $123 
million to rehab the former, I think, Fort Benjamin Harrison.
    And now GSA, even though that is a GSA building because it 
was a closed DOD building after the last round of BRAC, is 
charging it a suppressed level of rent under something called 
an ISA, an interservice. Can you tell me how that--isn't rent 
rent?
    Mr. Moravec. Well basically, occasionally we will make 
arrangements with a customer agency who provides their own 
funding for the rehabilitation, and in this case of the Bean 
Building in Indianapolis, we adjust the rent to reflect their 
economic contribution to the building.
    Mr. LaTourette. I would assume that there are many Federal 
buildings in your inventory that don't currently meet the DOD 
minimum antiterror standards that we are talking about today.
    Mr. Moravec. That is correct.
    Mr. LaTourette. And then, Dr. Moy, maybe you are not the 
right guy from DOD, but the building that we are talking about 
in Indianapolis, meets the new stringent antiterror standards, 
but it doesn't have the best terror assessment rating and it 
doesn't appear to be, it's ninth in terms of military value. 
Are you aware of the Indianapolis facility at all?
    Dr. Moy. Sir, I did not participate in any of the BRAC 
discussions or deliberations.
    Mr. LaTourette. OK. Well, let me ask you two questions that 
maybe you can help me with. I think you have in front of you a 
document that is dated February 21, 2005. And that document is 
from the headquarters and support activities joint cross 
service group briefing from that particular date. And anybody 
is welcome to jump in if you can give me an explanation. If you 
look down on the second page, under the bold heading, Informal 
Observations provided at the briefing, the eighth bullet point, 
it says DFAS could be your Achilles heel since you close 
installation with the highest military value and keep the 
lowest. The explanation for doing so needs to be strengthened, 
at least to make sure it's closely tied to the discussion about 
optimization models. Can anybody help me understand what that 
means in DOD language? Can anybody help me with that one?
    Dr. Moy. No, sir. I can try to get a response for the 
record, but I am not aware of that.
    Mr. LaTourette. If you could, I would appreciate it. And 
then again further down, three more bullet points down, it says 
that HSA, which is headquarters, support activities, and then 
the code for DFAS justification needs to be linked to strategy. 
You need to say up front that closing highest military value 
location, because otherwise, the MILCON costs would have been 
huge. Does anybody have any light that they can shed on that 
particular? No?
    Dr. Moy. No, sir.
    Mr. LaTourette. Well, let me just ask a final question then 
that I was talking to Congressman Moran about. I assume most of 
you saw or read about Senator Warner's testimony over in the 
Senate and his opinion that it was not appropriate for the BRAC 
process to give a bias toward getting people out of leased 
space. Again, on that same page of the same document, under the 
bold questions that arose, the question was as follows. Was it 
DOD guidance to get out of leased space? The answer, yes, but 
there is no supporting documentation. And to me that means yes, 
but we didn't want to write it down so people would find out 
about it.
    Chairman Tom Davis. Let me just say, I'd ask unanimous 
consent that the gentleman's time be extended.
    Mr. LaTourette. Thank you. And I'll try and make this my 
last question. I thank you. And then it goes on to say there 
was a general sense that being in the NCR is not good. Most 
space in the NCR is leased. So the connection was made that 
vacating leased space is favorable. This is something that was 
attributed to the former Acting Secretary and Secretary of the 
Navy. And I guess my question is, can anybody help me with or 
express an opinion as to how much the desire to get out of 
leased space shaped the BRAC recommendations, not just in the 
National Capital region, but all across the country? Anybody 
give me a hand with that?
    Mr. Moravec. I don't have any insight into that.
    Mr. LaTourette. Dr. Moy.
    Dr. Moy. Sir, I can't address the specific issue in terms 
of the National Capital region, but I would say that there were 
a number of factors that entered into the developing of the 
BRAC recommendations command and control putting, trying to 
gain efficiencies of putting similar units together, trying to 
take a look at how the command and control with operational 
units, security was a factor. But it was one of many factors 
that entered into the decision, all ending up with military 
value.
    So I would say it is correct to say that getting out of 
leased space was not, that I know of, a factor in and of 
itself. There were many factors that entered into the 
deliberations.
    Mr. LaTourette. OK. Again, just to make this my last 
observation, the Honorable H.T. Johnson, who was the former 
Acting Secretary, Assistant Secretary of the Navy, was a member 
of the BRAC red team and in response to a question, was it DOD 
guidance to get out of leased space, his answer was yes. And 
you can't enlighten me anymore about that?
    Dr. Moy. No, sir, I can't.
    Chairman Tom Davis. Will the gentleman yield?
    Mr. LaTourette. Sure.
    Chairman Tom Davis. Where is Mr. Johnson now?
    Dr. Moy. Mr. Johnson has left his position as being the 
Assistant Secretary of the Navy for installations.
    Chairman Tom Davis. Is he still in the Department of 
Defense?
    Dr. Moy. I do not know.
    Chairman Tom Davis. Could you get that information to this 
committee? Or is this guy--he comes in as a cowboy, makes his 
recommendations and leaves and goes on to whatever. Do you 
agree with the observation here that being in the National 
Capital region is not good, Dr. Moy?
    Dr. Moy. No, sir.
    Chairman Tom Davis. You don't agree with that. How about 
you, Mr. Jester, do you agree with that?
    Mr. Jester. No, sir.
    Chairman Tom Davis. OK. Mr. Moravec, do you agree with 
that?
    Mr. Moravec. No, sir.
    Chairman Tom Davis. OK. Mr. Williams, do you agree with 
that?
    Mr. Williams. No, sir.
    Chairman Tom Davis. OK. We don't know if Mr. Johnson is 
even with us anymore, but that seems to be the basis for some 
of these recommendations.
    Mr. LaTourette. It does. And again, I'd ask unanimous 
consent that this document go into the record.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Is there objection? Without objection, 
so ordered. Mr. Waxman.
    Mr. Waxman. Mr. Moravec, I also want to join in thanking 
you for your public service. It's been one of dedication and 
professionalism and I wish you all the very best as you leave 
the GSA.
    Mr. Moravec. Thank you, Congressman.
    Mr. Waxman. I wanted to raise with you an issue in Los 
Angeles, in my district, GSA has proposed to significantly 
expand a federally owned property at 11000 Wilshire Boulevard, 
so the FBI can modernize and consolidate its resources and 
operations. The Federal building sits between two of the 
busiest intersections, not just in Los Angeles, but in the 
Nation, Wilshire and Westwood Boulevards and Wilshire Boulevard 
and Veterans Avenue. The 405 Freeway, the second most congested 
freeway in the Nation, has an on ramp and an off ramp within 1 
block of the building. The largest VA medical center in the 
country, the 388-acre greater Los Angeles health care system, 
is directly across the street from the Federal building, and 
UCLA is just over a mile away. The Los Angeles Department of 
Transportation rates the level of service at the location as an 
F, the worst possible grade. There is a bus, but no transit 
service in the area.
    Traffic is terrible for many hours every day, including 
weekends. And peak hour traffic volumes are extreme. The 
infrastructure simply cannot support the plans GSA and the FBI 
have for the property. I have asked GSA a number of times to 
provide me with specific alternative sites it may be studying 
for this project. And the most recent letter I received from 
the regional administrator in April 2005 indicated that GSA had 
received suggestions for about 25 sites from community members 
and the L.A. economic development corporation, but was ``not in 
a position to identify those 25 sites as serious potential 
alternatives.''
    He further indicated that the process was still in a very 
early stage and the GSA had not yet started evaluation of the 
alternative sites. Yesterday, my staff learned from the 
Washington GSA office that the draft EIS should be ready in 
October 2005, and it will include an analysis of alternative 
sites, if any such sites have been identified. In addition to 
the severe infrastructure problems that expansion would cause, 
there are serious security concerns. First, it's difficult to 
understand how the FBI could deploy in an emergency in the 
middle of this densely populated area with some of the worst 
gridlock in the Nation. And I understand the FBI's need to 
better secure its facilities but the surrounding community 
believes that while the Federal Government will make an effort 
to harden a potential target against attack, there doesn't seem 
to be sufficient concern that the FBI's consolidated presence 
at this location would leave the residents more vulnerable to 
attack with an infrastructure further burdened as a result of 
the expansion.
    The community's also worried that during a national 
emergency, requiring the deployment of the FBI, its residents 
would not be able to reach the trauma center at UCLA or the VA 
Medical Center to receive care. And when you realize how close 
both of these facilities are, that's quite a concern. They just 
wouldn't even be able to get to that place. Well, I am saying 
all of this to you to express my very strong concern about the 
process. It just seems to me there hasn't been a willingness to 
look at alternative sites. It looks like there is a 
predetermined decision to go ahead with this.
    I don't like the process, but I have to tell you that I 
think this is a mistake to locate the FBI in this particular 
place and to go through the kind of building that is imagined 
for that area, the original GSA proposal called for a two-
phased project, renovation of the existing building, 
construction of two additional buildings, construction of a 
470,000-square foot building, plus parking to be completed by 
2016.
    And there are a number of groups that are just strongly 
opposed to this, Veterans Park Conservancy, West L.A. Chambers 
of Commerce, Westwood Hills Property Owners Association, Bell 
Air Association, Holmby Westwood Property Owners Association, 
South Brentwood Homeowners, Westwood Home Owners Association, 
Friends of Westwood, Westwood South of Santa Monica, Brentwood 
Community Council, West Side Neighborhood Council, and I want 
to include on that list their representative, the ranking 
member of this committee, myself.
    So I want to bring this to your attention. I don't know if 
you're prepared to discuss it now.
    Mr. Moravec. Well, I would say I'm sorry that you have lost 
confidence in the process. I will say I have no information 
that the outcome the environmental impact study has been 
predetermined. We believe we are proceeding in good faith. I 
know it's taking a little longer than many people would have 
liked. We anticipate its issuance in October.
    I think one of the reasons I've been told for the delay is 
that we have attempted to cast a very wide net in a search of 
alternative sites and to expand community involvement. As you 
may know, we have advertised in the L.A. Times. We have run 
notices on FedBizOpps. We have had meetings with the mayor. We 
have had meetings with the community. We have formed an 
informal voluntary group called the traffic working group, 
which has now met a number of times. And I know that an 
invitation has been extended to your staff to attend those 
meetings.
    The next meeting is on August 9th, and of course, your 
input is welcome. At this point we are fulfilling our 
responsibilities under the environmental impact study process.
    I would hope that all of the factors that you have raised 
would be taken into consideration in terms of our analysis of 
what that study reveals.
    Mr. Waxman. I hope so too. And I thank you for that 
suggestion that there is going to be some input from all of 
these other leaders in the community.
    When I first raised the issue, I got a bureaucratic blowoff 
letter thanking me and ``so long.'' We have gotten a little bit 
more of a response, but it doesn't really--it seems to me that 
this is not a good site. And I don't know if they are looking 
at alternatives seriously, because if this is not a good site 
there ought to be an alternative.
    So we will continue to work with the GSA and with you and 
others and see what we can do to solve this problem.
    Mr. Moravec. Thank you, sir.
    Mr. Waxman. Thank you.
    Chairman Tom Davis. Dr. Moy, the Department of Defense 
building standards rely on setbacks, preferring setbacks of 148 
feet. Is that correct?
    Dr. Moy. Yes, sir.
    Chairman Tom Davis. This is a distance that can't be met in 
this congressional office building, at any airport in the 
Nation or in most urban areas.
    Could you tell us what setback requirements were in place 
in London, Tel Aviv, Madrid or other cities that have far 
greater experience in terrorist attacks? And do you know what 
precautions they take to protect their government facilities?
    Dr. Moy. Sir, I can't address specifically as to what 
offset standards are being used in other countries and other 
cities or other locations.
    Chairman Tom Davis. Do you know if anybody looked at those?
    Dr. Moy. My expectation is that after the Khobar bombing we 
did an analysis of what was being used in other locations by 
other countries, and we also looked at developing tests 
ourselves through our various laboratories and determining what 
types of threats, what types of damage, because this goes back 
to taking a look at, it is not just setting that distance. And 
there is nothing else other than that distance that must be 
satisfied. We take a look at what types of blast mitigation, 
what types of progressive collapse has been built in the 
building. We take a look at parking or traffic control that is 
around the building. There are a number of issues that enter 
into the adequacy of the security of a facility, not just the 
offset distance.
    Chairman Tom Davis. Of course. But unlike the ISC, DOD's 
solution is very prescriptive.
    Dr. Moy. We have determined that the vehicular bomb is the 
significant threat and must be considered in any security plan 
for the facilities where we have DOD employees in, sir, yes.
    Chairman Tom Davis. I understand that. But when you take a 
look around the world and you take a look at cities that have 
gone through a lot of different bomb blasts, we have different 
population makeups, you can't tell me what their standards are. 
I can tell you for a fact that they are not as strict as yours, 
and yet they are very deterrable. And I am very concerned.
    Look, I am not faulting you, because if what your job is is 
to protect the buildings and the people working in the 
buildings, I can draw you something that is foolproof. I will 
put you underground bunkers out in the desert surrounded by 
barbed wire and troops and they will be safe. You won't be able 
to hire anybody and get the job done, but you will have other 
problems. But if that is your only public policy purpose, that 
works.
    But what I am concerned about, and I think other members of 
the committee are as well, is balance. This is a lot of money. 
Yeah, it has impact economically and some of this stuff can be 
mitigated and some can't. But even under the language by the 
ISC, there is going to have to be some changes. But they are 
not nearly as prescriptive. They are much more general in their 
nature. They allow for flexibility to meet certain standards.
    And I am very concerned when I see a memo from the 
Department of Defense, from somebody we don't even know if he 
is there now or not, when he talks about, makes a comment on 
a--by the way a memorandum that says not to release under FOIA. 
They don't want us to see it, but it is obviously a part of DOD 
making a decision on this--where they said that being in the 
National Capital region is not good.
    We have some of the best educated workers in the country 
here, a concentration of them, that has produced DARPA, the 
Internet. They've produced some wonderful things that keep our 
defense No. 1 in the world. And when you move outside this 
region, there is some assumption that people are going to 
follow you, in an area where there is a 1.4 unemployment rate 
with a great school system, and they don't necessarily follow. 
They go across the street and make more money than you pay over 
at DOD. Nobody even looks at that. They want to be in this 
region.
    Frankly, I find it very, very short-sighted. If DOD would 
just face up to this instead of trying to hide in these 
documents, I might feel a little bit better about the decision. 
But I will tell you something right here. Mr. Moran said it 
earlier, and I am going to say it. You're not going to get it 
funded. You're not going get it funded through this House. 
You're not going to get it funded through the Senate.
    If you think it is more important to protect your brass and 
these buildings than it is to provide housing for troops--
because it comes out of that budget--housing for troops out 
there in the field and their families and enlisted men, you 
have another thing coming, because that is not what this 
Congress is about. And I think being so prescriptive puts you 
out of work with ISC and other government agencies and don't 
think you're so special that you're better than the 
intelligence agencies and other Federal workers working around 
that you need something different.
    Why are you so different than everybody else that you moved 
ahead instead of coordinating with these other agencies under 
the Executive order that calls for coordination?
    Dr. Moy. Sir, we believe we have tried to coordinate with 
the----
    Chairman Tom Davis. But you have different standards.
    Dr. Moy. Yes, sir, and that is specifically because we have 
taken the approach that we want to protect the mission as well 
as the personnel against a terrorist threat.
    Chairman Tom Davis. I understand this is not your problem, 
but in protecting one group, it is a limited amount of money 
here. It is a limited amount of money. This means fewer money 
for housing for military personnel on bases because it comes 
out of the same pot. I will let you answer. Go ahead.
    Dr. Moy. I would also submit, sir, that if we were to take 
a look at other practices, if we look at the State Department 
that is allowed to--under the ISC guidelines, does put a lot 
into the protection of the embassies around the world.
    Chairman Tom Davis. That is around the world. This is 
Washington, DC, which is a much safer haven where we can to 
some extent, through immigration and visa policy and everything 
else, doesn't have the track record that you have in some of 
these other cities. And that is why I asked, looking at other 
cities that we coordinated, see what they do routinely in 
Madrid, what they do routinely in London, what they do 
routinely in Tel Aviv, where you have--these are far greater 
occurrences. But I understand. And look, nobody here is 
faulting giving flexibility. But what your standards do is not 
give flexibility.
    Dr. Moy. It still boils down to the commanding officer, 
installation commander, if they elect to accept that the 
threat, that the risk assessment, that the mission does not 
require the UFC specific requirements, there is leeway for 
relaxing the requirement.
    Chairman Tom Davis. Well, there is no leeway in the BRAC 
recommendations. These are recommendations that have come out 
that Senator Warner thinks they are illegal, but that will be 
determined later on. But this is a BRAC discussion that just 
says that being in the National Capital region is not good. 
That certainly--that policy is not something that has been 
subject to any kind of public comment. It was in a secret 
meeting that is not subject to FOIA by a guy we don't even 
think is still in DOD, and it just doesn't give me a high level 
of confidence, but maybe other Members have different opinions.
    Mr. Kucinich.
    Mr. Kucinich. I want to thank the Chair for calling this 
meeting because members of this panel have information that I 
think is relevant to a BRAC process that has unfairly affected 
our community in Cleveland. I would like to ask Dr. Moy some 
questions.
    When the Department of Defense analyzes the security 
threats for U.S. installations, I assume it takes into account 
who works there, correct? You take into account who works at a 
particular installation, who works there or who would work 
there?
    Dr. Moy. It takes into account the mission that's there, 
the criticality. Yes.
    Mr. Kucinich. And the likelihood of a facility being a 
target for attacks?
    Dr. Moy. Yes, sir.
    Mr. Kucinich. Would you describe for this committee what, 
according to your criteria, do you consider high value targets? 
What are high value targets?
    Dr. Moy. High value targets we would consider those that 
are involved in the intelligence gathering, communications, 
those that are very necessary in the global war on terrorism. 
We take a look at those facilities that have a large number of 
personnel that could very well be subject to mass casualties in 
the event of a terrorist attack.
    Mr. Kucinich. So it is not simply the function, it is how 
many people are in the building?
    Dr. Moy. That enters into the picture, yes, sir.
    Mr. Kucinich. Go ahead. What else is involved in high value 
targets?
    Dr. Moy. It basically comes back to focusing on what the 
mission of that facility is and its criticality to 
accomplishing the mission of the Department of Defense, taking 
a look at the number of people that are in that facility. I 
would say that those are two major components to the high value 
of the facility.
    Mr. Kucinich. Now, the military value rankings, are they 
based on supposed threats? Are they based on actual threats? 
What are they based on?
    Dr. Moy. Sir, I cannot address the determined military 
value in that context.
    Mr. Kucinich. The high value targets, what is the 
underlying assumption there? Is that based on information that 
the Department of Defense has or is it speculation or what?
    Dr. Moy. The high value goes back to the impact that 
facility has to accomplishing the mission of the Department of 
Defense.
    Mr. Kucinich. Well, let me ask you specifically. The 
Defense Finance Administration. You're familiar with that?
    Dr. Moy. Yes, sir.
    Mr. Kucinich. Are the Defense Finance Administration 
functions considered to be high value targets?
    Dr. Moy. I cannot comfortably give you a yes or no answer 
to that.
    Mr. Kucinich. Why not?
    Dr. Moy. The function of making sure our folks are paid, 
the function of making sure that our contractors are paid, I 
personally would judge that as being a high value for our 
service members. But in terms of considering that alongside a 
facility that is supporting the global war on terrorism, there 
is a difference in, of what a high value is. So I can't 
arbitrarily say, yes, it is high value, period.
    Mr. Kucinich. I understand. But what I am trying to 
determine, I think it would be helpful for this committee, is 
to be able to--so much of the work that you seem to be doing is 
quantifiable.
    Do you have a listing like a matrix? Does anyone on this 
committee have any kind of a matrix--on the panel--have a 
matrix where you list the building, who is in the building, the 
threat assessment based on real or supposed threats, the 
ranking as to what the value is with respect to the--from high 
to low value target and where would accountants and other 
civilian defense employees fall into that kind of a matrix? Do 
you have any kind of documents like that in your possession?
    And if you do, Mr. Chairman, I think it would be useful for 
this committee to ask for those documents.
    Chairman Tom Davis. Well, we'll ask for them. And if not, 
we can subpoena them.
    Dr. Moy. Sir, I don't believe that we have any documents, 
either individually or in one place, that would array the 
500,000-some facilities in the Department of Defense ranking 
them from one to zero.
    Mr. Kucinich. I guess the question then becomes, how do 
they come to that conclusion whether something is a high value 
target or not?
    We are told that enters into a decision as far as BRAC. 
Now, if that enters into the decision and we have the person 
who is charged with----
    Chairman Tom Davis. I guess the question is how is that 
conclusion reached if there is not a ranking?
    Dr. Moy. With the specifics of, again, relating to how you 
reach that decision according to BRAC, I would have to say I 
cannot answer that question. But in terms of addressing 
specific facilities, what I was trying to answer the question 
is, I don't know what inventory that we have that--a 
comprehensive inventory that we have for all of our facilities.
    Chairman Tom Davis. You don't have a listing. But do you 
have general guidelines?
    Dr. Moy. We have, JSSEWG teams that go out and inspect 
installations, inspect key facilities. They come back and----
    Chairman Tom Davis. Do you have anything on this particular 
facility Mr. Kucinich is asking?
    Mr. Kucinich. I appreciate the indulgence of the Chair here 
and the assistance, because the question that comes, you know, 
since we had this as a general discussion, and you don't--you 
would rather be specific, so would I.
    In the draft analysis we have a site--and Mr. LaTourette is 
familiar with this because he has been leading this effort--the 
Defense Bratenahl site was ranked, was rated as the 6th highest 
in terms of military value, which compares to Denver at 3rd, 
Columbus at 9th, Indianapolis at 12, and Cleveland downtown at 
13, but the Bratenahl site was eliminated from the final 
rankings, and I am wondering why, speculating here as to why 
DOD didn't offer a scenario site to include DFAS to a site down 
the street which would save 1,200 jobs.
    So, again, Mr. Chairman, it seems to me that this committee 
can perform a service by trying to pin down the Department of 
Defense on this criteria, because there is something about the 
criteria that seems nebulous and its application which seems 
arbitrary.
    Chairman Tom Davis. Dr. Moy, you didn't make the BRAC 
decisions though, is that right? You're not in that loop?
    Dr. Moy. No, sir.
    Mr. Kucinich. I understood that, Mr. Chairman.
    Chairman Tom Davis. But you would be, or could get us 
information in the loop in terms of how this was ranked, how 
someone came out and looked at this and evaluated this and 
decided somehow this is a high value target, couldn't you?
    Dr. Moy. I could certainly take that for the record.
    Chairman Tom Davis. If you could get back to us for the 
record, which is what we want to look at. And if you can't do 
that, I know the record is somewhere. You just tell us you 
don't feel we can have it, and then we can proceed from there 
to see what we might need to do. I understand--this isn't meant 
personally, you just happen to be the flack guy they sent out 
here today and you have some knowledge about how this stuff 
happens. And we are just trying to get some answers. But 
there's obviously some disagreement among Members about some of 
the individual decisions that have come out of the agency. And 
we are just trying to get answers and to the extent you can 
give it to us, we will try to get it. Any other questions?
    Mr. Kucinich. Mr. Chairman, I want to thank you for your 
participation in helping to get some answers. Thank you, Mr. 
LaTourette.
    Chairman Tom Davis. Mr. LaTourette, do you have any 
questions?
    Mr. LaTourette. If I could followup on what Congressman 
Kucinich is asking and if we are asking Dr. Moy to find the 
former Under Secretary Johnson, I do have one more question I 
would like to ask him for the record.
    But Mr. Williams, not to ignore you, I think Congressman 
Kucinich has asked a good series of questions and I keep 
reading in the newspaper that the Department of Homeland 
Security is interested in chatter. We want to see what people 
are talking about and what sites are at risk. When we go about 
allocating our scarce homeland security money there is a real 
argument to be made that the lion's share should go to places 
like Washington, DC, and New York City.
    Are you aware of any chatter that has targeted the 
accountants at DFAS that indicates that they are particularly 
at-risk members of our Defense Department? The reason I ask you 
is that I think this is the first BRAC round that has put the 
accountants in with the soldiers, the warfighters. And I think 
it is a little bit like trying to take a square peg and put it 
into a round hole. But are you aware of any chatter that the 
accountants are in danger?
    Mr. Williams. I don't have any specific information, no.
    Mr. LaTourette. I thank you for that.
    And Dr. Moy, the other thing I would ask you just if you 
can find out, one of the successful sites is the Buckley Annex, 
which is in Denver. And again the Air Force member at another--
I don't know if it was a secret meeting but it was another 
meeting not subject to FOIA, that occurs and it is listed on 
January 19. And it is the second of the two documents that I 
provided to you. The Air Force member asked if the Buckley 
annex is the best place for DFAS to be located considering the 
high labor rates in Denver, and aside from the issue of 
terrorism, cost is something that is of interest to us. And I 
think, again, to be parochial, Cleveland was just labeled the 
most impoverished city in America. And it has a workforce that 
is substantially lower labor rates than Denver. And if you 
could ask whoever you're going to ask to get back to us and 
they can make a comment on what is 6(a) on the second document 
from January 19, I would appreciate that.
    Chairman Tom Davis. And Dr. Moy when we say, ``get back to 
us'' again, this is not directed to you personally.
    Could you get back within 2 weeks from today and if you 
don't have it, at least tell us where you are on getting it? 
DOD, your agency, sometimes works on things for years at a time 
and doesn't come up with it.
    We just need to know what kind of response we are likely to 
get, what manpower is involved and you can get back to us and 
we will try to work through it and see what we can get or get 
the subpoena out. But I think at this point if we could--just 
let us know how it is working and what is involved with it. We 
will try to work it out. We are not trying to be hard here. But 
obviously Members have some issues.
    Dr. Moy. Absolutely, sir.
    Chairman Tom Davis. Any other questions, Mr. LaTourette?
    Mr. Kucinich. Mr. Chairman, before you get on to the next 
person, I just want to say all of us in the Cleveland area 
appreciate the exceptional work that Congressman LaTourette has 
done on this, and the information that he has produced is very 
important to all of us.
    Chairman Tom Davis. Thank you very much.
    Also, we are trying to find out where the missing Mr. 
Johnson is, too.
    If that is one of the questions, maybe you can find that 
out in the next 2 weeks, too.
    Dr. Moy. Yes, sir.
    Chairman Tom Davis. Thank you very much. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Now, first I want to join in with those who have expressed 
congratulations to Mr. Moravec for his years of service. He has 
been a first class professional. I have worked with him for 15 
years in the GSA. Regardless of administration, he sets 
standards. Sorry to see you go.
    Mr. Moravec. Thank you very much. That is very generous of 
you, Congresswoman.
    Ms. Norton. Let's look at what the DOD has done. I am tired 
of the use of these letters. Let's break it down here right 
now. When people hear DOD, they think they are hearing things 
like the Pentagon, you know, guys in uniforms, brass. So the 
word can be used when it is used generically to the average 
American, let's see if it calls to mind the personnel and the 
agencies that would be moved out of northern Virginia. Dr. Moy 
even evoked the State Department standard in foreign countries 
of embassies. So you see what we have here. We are trying to 
create an image of what is being moved based on the kind of 
generic image that the public has of what the DOD is.
    I think it is only fair to ask our witnesses to break down 
for us the agencies and the kinds of personnel we are talking 
about moving from northern Virginia to an army base, and I 
would like to have the greatest specificity you can offer, and 
I should hope that you did not come here without being able to 
go behind the word ``DOD.''
    Speak up whoever wants to speak up first.
    Dr. Moy. Ma'am, let me try to answer your question this 
way. I am not going to be able to go through a line item 
description of all the things that are being moved from one 
location----
    Ms. Norton. Just do your best. I know you're not ignorant 
on this score. Because given your title, I know you're not 
ignorant. So I am not asking for line-by-line item. I am asking 
for--to the best of your ability, name me the agencies, name me 
the kinds of personnel that work in those agencies.
    Dr. Moy. We have--the people that work in these agencies 
are a mixture of uniformed and civilian personnel. And if we go 
back to----
    Ms. Norton. What percentage are uniform and what percentage 
are civilian personnel? Are most of these uniform? Are most of 
these civilian? What kinds of work do they do in these 
agencies?
    Dr. Moy. In answer to your question about the percentages, 
I cannot give you an answer to that. The answer to your 
question about what kind of work these folks do, they do a 
variety of work. Some support the intelligence requirements for 
the Department. Some support the acquisition of equipment, of 
weapon systems, some support the facilities, business of the 
Department. There is a variety of things that these folks 
provide for the Department of Defense.
    Ms. Norton. Mr. Moravec, these are agencies that you have 
been responsible for finding leased spaced for in northern 
Virginia.
    Would you, to the best of your knowledge, tell me some of 
the agencies involved? You found the space, and the kinds of 
personnel that are found in those agencies, are they generals? 
Are they military personnel? Are they uniformed personnel for 
the most part?
    Mr. Moravec. I would simply concur with Dr. Moy's 
characterization. This is a diverse workforce consisting of 
uniformed and civilian personnel working on a very wide variety 
of Department of Defense headquarters type functions, high 
administrative functions for the most part.
    Ms. Norton. The figures I have been given are for civilian 
15,754; military, which does not necessarily mean uniform, 
6,199.
    Now, I would like you to provide to the chairman of this 
committee the exact agencies and a rundown of the personnel 
functions they do. It is my understanding that these are mostly 
people who do the same kinds of things that are done for other 
agencies. You know, the kinds of things that are located in 
northern Virginia, for example, is inspector general, there are 
education and training facilities, there are researchers. But I 
think you have an obligation to disaggregate for this committee 
what you're talking about and to rebut my assertion that we are 
talking about people that look like the same people who are 
sitting all across the region doing the same kinds of 
administrative tasks that they do, including contractors, who 
often are in some of these buildings side by side with Federal 
workers, but not contractors working on some great big nuclear 
secret, not contractors like people in embassies, but 
contractors like people doing essentially the kind of head work 
that most terrorists could care less about. I can understand 
their interest in military facilities.
    But I ask you to provide within 30 days to the chairman of 
this committee, Dr. Moy, a breakdown of the line-by-line that 
you, of course, do not have in your head, of the agencies 
involved.
    I have been involved with the BRAC matter because there is 
a facility here which raises wholly different concerns. And of 
course, that is Walter Reed Hospital. And what I have tried to 
do is to understand what the BRAC calls for. So I said to my 
people who don't want Walter Reed to move, don't want to hear 
what a nice thing it is for the community. These are military 
folks, and the foremost of the standards is military value.
    So my question is--really goes to this. Weeks before BRAC 
ever came out, the Defense Department announced that it wanted 
to move these personnel from northern Virginia to an army base. 
Then here comes BRAC. And BRAC says, guess what? We want to 
move these people to an army base. In the law we would call 
this protectoral, that the decision had been made quite apart 
from military value to move these facilities.
    And I would like you, Mr. Williams, and you, Dr. Moy, to 
describe what the military value is to the U.S. taxpayer of 
moving personnel specialists, researchers, many of whom simply 
have their headquarters or offices there, training facilities 
and the like, into a shuttered army base where for good reasons 
we make it very difficult to get in.
    Yes, sir. Mr. Williams.
    Mr. Williams. I, for one, don't feel that I am qualified to 
respond to what the mission and the mission needs are of DOD. 
Again, as a chairperson of the ISC, we are primarily concerned 
with non-military activities. So I have not been involved in 
that.
    Ms. Norton. Aren't you on this 12-person agency--task 
force? I am sorry.
    Mr. Williams. Which----
    Ms. Norton. The interagency group that together is supposed 
to consider all these matters so that you have at the table, 
for example, not the DOD making a decision by itself, oh no, 
but with the input of GSA, God help us, of the Department of 
Homeland Security. Or is DOD out there by themselves and it 
doesn't matter what the standards are for everybody else?
    Mr. Williams. Well, again, DOD was part of developing the 
ISC standards. And we have set them minimum standards so there 
is quite an array of missions between the many government 
agencies that could require great elevation of those standards.
    Ms. Norton. Mr. Williams, I would hope that these standards 
meet the necessary flexibility, agency by agency. Are you 
saying that no amount of flexibility or of thinking or of 
drawing in experts was possible to avoid moving mostly 
civilian, non-military, administrative employees to an army 
base, that this was the last resort, these personnel are so 
valuable to the terrorists, we look at so many options for 
making sure that they were safe, cross them all off, just 
couldn't do another thing and finally said, ``Golly, these 
folks have to go to an army base because there is no way else 
to protect them,'' and we don't know, and the private sector is 
not able to help us provide ways to keep them where they are, 
we are going to undertake this for that reason? You are saying 
all those options were looked at?
    Dr. Moy. Ma'am, I would like to add that the issue of 
moving the subject people to an army base, that the unified 
facilities criteria was not the only----
    Ms. Norton. What was not the only? I am sorry, what was not 
the only criteria?
    Dr. Moy. The Unified Facilities Criteria, the anti-
terrorism force protection criteria was not the decisionmaker 
for moving people.
    Ms. Norton. What was the major criteria then?
    Dr. Moy. It always goes back to military value. But it 
takes a look at--the intent was to try to gain efficiencies of 
placing like functions together, trying to address command and 
control among units, placing them in closer proximity, in terms 
of cost savings of moving them to DOD or federally owned 
facilities. So there are a number of things that entered into 
the decision, not just whether they met the anti-terrorism 
force protection requirements of the Department.
    Ms. Norton. Of course, although that is the primary point 
here. Gentlemen, the carving out of the DOD almost entirely, it 
would appear, regardless of the personnel, regardless of the 
function, calls into question all you have done for Federal 
workers. You've taken the largest number. Maybe Homeland 
Security now, Mr. Williams, is the largest number. We cannot 
fail to believe that your standards are worthless because after 
DOD I don't know why, Mr. Williams, you won't be here saying, I 
am sorry, we have to move all the personnel. Of course, they 
are all civilians, but somebody might attack them, so we just 
have to move them as far as we can.
    And I want you to tell me, Mr. Williams, what is the 
difference between you and Dr. Moy when it comes to moving 
facilities based on exposure to terrorism, and he says a whole 
bunch of other matters. I don't see the distinction.
    Mr. Williams. Again, the ISC, we have--there was a 
collaborative effort that I think involved many entities from 
National Capital Planning Commission on through. We have 
developed a set of minimum standards that are very flexible. 
They can be tailored based on the mission of the individual----
    Ms. Norton. But these are not--please answer my question. 
They weren't tailored. You gave up on the standards here and 
moved them to a military base which is the most secure place 
you can locate in our country. So they are outside of the 
standards.
    Mr. Moravec. I am not sure I would agree with the 
characterization of the ISC standards as worthless. They are 
adequate for the purpose for which they were intended, which 
was to establish a minimum baseline of security upgrades to 
which private landlords could respond. They provide a 
reasonable level of protection under most circumstances. The 
ISC standards definitely reduce or mitigate the threat. They 
don't eliminate it. And I would also----
    Ms. Norton. Mr. Moravec, if that were the case in your own 
testimony you mentioned level 4 standards. You yourself I am 
sure are no small part, given your expertise, responsible for 
and you say what some of these standards are and they can be 
very burdensome. You say it could involve control of common 
entrances, parking areas, some inspection, and the like. And 
then you go on to say one solution may be to consolidate 
agencies with similar security profiles, to secure efficient 
and cost effective building occupancy. But you say, ``may 
receive less interest from the market.'' That is to say, what 
you require, let's say an already leased space, may receive 
less interest from the market and be less competitive.
    I would like to know what is the evidence from the market 
in northern Virginia that that leased space was unwilling to 
try to meet standards--your standards--with some flexibility. 
What is the evidence? Did you call them together? Have you 
drawn in the development community, a very extensive community 
around the National Capital area, sat them down at a table, 
told them what you are up against, that your personnel 
specialists and DOD needs to be in an army base unless they 
will, in fact, conform to some of these more burdensome 
standards and if so, what did they say, did they say, yeah, I 
guess you have to move them to an army base?
    Mr. Moravec. The private sector was very definitely 
extensively involved in the creation of the ISC standards. 
There was extensive consultation, not just in the National 
Capital region, but around the country with private landlords 
as to how they would respond to different kinds of security 
countermeasures that would be mandated as part of a 
solicitation for offer of space. So they were very definite.
    Ms. Norton. Mr. Moravec, please answer my question. I asked 
you because the chairman wants me to go on. I asked whether the 
private development sector here, which you say may be less 
willing to conform with these standards, whether these people 
were told this is likely to happen, you are likely to have 
agencies increasingly moved to shuttered bases unless you think 
deeply and creatively about whether you can meet these 
standards? If you have, I want to know when and I want to know 
who.
    Mr. Moravec. We didn't tell anybody that as part of the ISC 
process. Basically we developed the standards and thus far we 
really mostly have anecdotal evidence as to what the reaction 
is. Other than level 4 protection, which requires pretty much 
complete control of access to the building and parking areas 
and segregated heating, ventilating and air conditioning 
systems for big parts of the public areas of the buildings, we 
don't think that the private sector is going to have a hard 
time responding competitively with regard to the first three 
levels of security. The big difference between the DOD 
standards and the ISC standards have to do with setback and 
blast protection. Basically the DOD standards are incorporating 
and actually enhancing what we call the security design 
criteria for Federal construction, and they are applying it to 
leased space. So they are fairly consistent with the ISC; in 
other words, the rest of the Federal community standards for 
security for owned space. But they are applying it to leased 
space. So philosophically it is consistent. It is just 
requiring a much higher level of security.
    Ms. Norton. Could I just ask, Mr. Chairman, could I ask you 
to call a meeting of the development community in this area to 
put before them what may face them, to begin to get them to 
think about what you should get them to think about anyway, 
because you know that you have owned space, space you own in 
the District of Columbia and Maryland that you can't begin to 
move anywhere? So you should have had them coming in and 
talking about the Ronald Reagan Building down there. You own 
it. Yes, there are private agencies there, but those agencies 
remain there, but you control the parking. And you are in 
greater control of that building. The fact is that you do not 
have open to you the option that has been used with BRAC as a 
subterfuge and a pretext in order to try to move things out of 
northern Virginia. You know you can't move it out of the 
District of Columbia. You know you can't move the Pentagon. You 
know you can't move the National Capital area.
    And what this process reveals is that there is almost no 
innovative or creative thinking going on among those who are in 
charge of the facilities in this area. If there were, we would 
have heard some of that back. You already said that you have 
not called in the development community. I am asking you 
specifically to do that.
    Call them in. Lay it on the table. Do it not only because 
we want to keep people from moving out, do it because you owe 
it to us because you have buildings in D.C. not only like the 
building that the chairman brought to your attention, you have 
the Secret Service here. You have the FBI here. And you have 
departments I won't even name here. And only when you begin to 
do that will you be able to protect those who are here, much 
less running for cover--and that is why I am ashamed of you--
running for cover by essentially giving up when we are talking 
mostly about workers like every other worker around here, not 
people who are attached to security at all, and every last one 
of you at the table know it.
    Thank you. Thank you, Mr. Chairman.
    Mr. Moravec. I may not be clear, but we have involved and 
will involve the private industry in the evolution of the 
interagency security standards. This is a living document that 
will be adjusted as we learn more.
    Ms. Norton. Mr. Chairman, could I ask that you ask the 
developer or at least perhaps as part of another hearing ask 
the development community to come before us and testify what 
they think of----
    Chairman Tom Davis. We'll certainly ask them. And I know we 
had a meeting with DOD, and DOD, which is their restrictions 
are far worse than I see from a development point of view. We 
have had some meetings informing them of what would be helpful 
hearing from them. We can do that. But thank you very much.
    Ms. Watson, and then Mrs. Tubbs Jones.
    Ms. Watson. Thank you so very much, Mr. Chairman. I think 
this is a very critical hearing we are having this morning. I 
would like to thank the panelists as well.
    I was a U.S. Ambassador assigned to the Federated States of 
Micronesia. Our Secretary of State constantly informed us of 
the new standards, this back in the late nineties. And so I 
brought my packet to Washington, DC, to the State Department 
describing our facility. They told me, sorry, I was No. 80. I 
would be No. 81 on a list of 80 that were already there. So our 
attention is not going to the needs of all of our embassies 
overseas. I was just turned down flat. Because we were right on 
the road. If somebody wanted to do us harm, all they would have 
to do is throw a canister up on the roof and that would be it.
    I say that to say we are all at risk. So I think I am going 
to address this question to Mr. Moravec.
    You mentioned in your testimony that the ISC Security 
standards for leased space do not preclude the utilization of 
space in the central business districts. And as a result of the 
Oklahoma City bombing, the ISC was formed.
    I want to know, do our offices that we lease as Federal 
employees and as elected officials come within that standard? 
If not, why not? We lease space. And let me go just a minute 
further. We got a call--three calls from the FBI in Los Angeles 
that there had been a threat made not only to my person, but to 
my office. I asked my staff to find out more about it. So I 
called the agent that had called our office, and I inquired. 
When I came here, I called the FBI. They moved this guy out of 
my region.
    And so I am saying, if we are threatened, then I should be 
able to instruct my staff and my constituents when they come to 
my office what risk they are under when they come. I could 
never get any information.
    So let me know, Mr. Moravec, if you consider our federally 
leased space within the standards. And I wrote down here, are 
we a high value target or not? And if not, why not?
    Mr. Moravec. Well, the ISC standards have just become 
formalized within the last 5 months. So it is clear that not 
all buildings are in compliance with the ISC standards at this 
point. Every Federal agency, regardless of whether they are in 
owned or leased space, is supposed to have an occupant 
emergency plan. There is supposed to be a building security 
committee chaired by the highest ranking member of the largest 
tenant in a Federal building, whether it is owned or leased, 
that is responsible for developing an emergency plan 
specifically for that building and in consultation with the 
Department of Homeland Security and with the building 
management with GSA.
    Ms. Watson. It is not happening. I am in Los Angeles and 
right down the street from the freeway that Mr. Waxman 
mentioned and our districts are. Whatever happens in his 
district impacts mine as well. And I am right up to the 
airport. I don't have the airport. But I go right up to it. And 
we are not informed.
    Mr. Moravec. Are you in a federally owned building or a 
multi-tenant?
    Ms. Watson. No. I am in leased space in a commercial 
building. So my question to you is, do the regulations and the 
requirements apply to Members, Federal employees who are in 
leased space?
    Mr. Moravec. Absolutely they do.
    Ms. Watson. OK. Well, I haven't seen any of that. And we 
then asked the manager and the owners of the building to help 
us secure our property and then I asked the FBI for more 
details? You know, are they going to try to get us in our cars, 
underground, my staff that comes and goes on public 
transportation. You know, help us reduce the risk and protect 
our people. I have not seen any of that.
    Mr. Moravec. Well, we will endeavor to do better.
    Chairman Tom Davis. Thank you. The standards are new. They 
are brand new. It takes a long time. Even DOD standards are 
just starting to kick in, when these leases are expiring and 
the like. But thank you very much. Ms. Tubbs Jones.
    Ms. Tubbs-Jones. Thank you, Mr. Chairman, for the 
opportunity to ask just a couple of questions. Good morning. 
Well, almost afternoon. I come from Cleveland, OH. You already 
heard from two of my colleagues, Dennis Kucinich and Steve 
LaTourette, with respect to a BRAC closing of a DFAS facility 
in our congressional district.
    I guess what I am interested in is in the process of a 
BRAC, what consideration is given to the existing facility that 
a group of employees is working in as compared to a new 
facility, a facility that they would be moved to for purposes 
of considering whether the BRAC should take place? Are you 
understanding my question or am I confusing you? I see the 
frown. That is I why I'm asking.
    Mr. Moravec. I understand your question. I would have to 
take that for the record, and I am not able to answer your 
question now.
    Chairman Tom Davis. He was not part of the BRAC process 
formally. He was part of the group that formulated some of the 
security details of buildings.
    Ms. Jones. So what I am interested in is to whomever this 
question will be directed, so it will be clear, so that they 
won't be confused about what I am asking, is the DFAS employees 
who are currently in a Federal facility on 9th Street, the 
physical Federal buildings?
    Mr. Moravec. Celebrisi Building. It is a beautiful building 
from the 1960's. It has aged very well. We are very proud of 
that at the GSA.
    Ms. Jones. Depends on who you ask. Regardless of that, what 
consideration is given to the security of that facility as 
compared to a facility that they would be moved to if they were 
moved to Denver or Columbus or Indianapolis in terms of 
pointing and deciding where--what is the best place for this 
DFAS to be located? That is what I am interested in knowing, 
and anything else that my colleagues asked. And since I am at 
the end of this and the chairman has been so kind, that will be 
the only question I will ask today. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    I am trying try to get back on all those issues. Dr. 
Moravec, you just make sure you have a conversation with the 
staff so you know what you are supposed to get back and just do 
your best to try to get some of the information and let us know 
where we are. I know some of these requests may seem fairly 
cumbersome, but you can get back and work out what we need to 
answer some of the Members' questions.
    Dr. Moy. Yes, sir.
    Chairman Tom Davis. I want to thank everybody. It has been 
2 hours. Dr. Moy, you don't get combat pay for coming up today. 
But I would be happy to make that recommendation to your 
superior.
    Dr. Moy. Sir, I enjoy being your constituent.
    Chairman Tom Davis. Thank you very much and nothing from--I 
don't think is addressed to you personally, it is obvious that 
there is frustration with some of the decisions and some of the 
decision matrix coming out of the departments. And you are the 
guy that is here. But we appreciate the job all of you are 
doing on this and I just want to say, it isn't always easy 
where we sit either. But thank you, very much.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]
    [Note.--DOD did not submit responses to committee members' 
questions for the record.]
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
